                                                EMPLOYMENT STANDARDS
                                                ADMINISTRATION


Office of Inspector General—Office of Audit 





                                                OWCP’S JACKSONVILLE AND NEW YORK
                                                DISTRICT OFFICES NEED TO IMPROVE
                                                MONITORING OF RE-EMPLOYMENT STATUS OF
                                                CLAIMANTS




                                                                         Date: September 29, 2009
                                                                Report Number:   04-09-004-04-431
                                                       September 2009
U.S. Department of Labor
Office of Inspector General                            OWCP’s Jacksonville and New York District
Office of Audit                                        Offices Need to Improve Monitoring of
                                                       Reemployment Status of Claimants
BRIEFLY…
Highlights of Report Number 04-09-004-04-431, to       WHAT OIG FOUND
the Assistant Secretary for Employment Standards
                                                       OWCP needs to improve its process for
WHY READ THE REPORT                                    monitoring claimants in the “reemployment
                                                       status not yet determined” category on the
                                                       FECA program periodic roll. In 13 (11 percent) of
The Federal Employees’ Compensation Act (FECA)         the 119 cases OIG reviewed, Jacksonville and
program provides wage loss compensation and            New York claims examiners did not perform
payments for medical treatment to Federal              critical required activities such as referring
employees who are injured in the performance of        claimants for nursing and vocational
their duties. The Office of Workers’ Compensation      rehabilitation services to determine if claimants
Programs (OWCP) refers to claimants who receive        could return to work in some capacity. We also
automatic monthly payments as being on the             noted other indications that OWCP was not
“periodic roll.” Claims examiners in twelve District   performing adequate monitoring in 54 (45
Offices are responsible for (1) proactively managing   percent) of the 119 cases reviewed.
cases on the periodic roll until the claimant either   Specifically, claims examiners did not take
returns to work, is found to be entitled to reduced    necessary actions, such as referrals for medical
compensation, or it is determined the claimant has     examinations and/or did not act on examinations
no re-employment potential for an indefinite future,   that had already occurred. Of these 54 cases, 40
and (2) complying with requirements to refer           (74 percent) claimants were not provided a
claimants for other services, such as nursing or       significant intervention action for 6 months or
vocational rehabilitation services.                    longer.
During fiscal year 2007, OWCP made nearly $1.8         Furthermore, we noted 20,236 (or 37 percent) of
billion in wage-loss compensation payment to           54,674 claimants as of June 30, 2008, were on
injured Federal employees. At the end of fiscal year   the periodic roll and their re-employment status
2007, 51,125 claimants were receiving regular          had not yet been determined, including 2,860
monthly wage-loss compensation payments from           claimants (14 percent) who had been on the
OWCP.                                                  periodic roll for 15 years or longer.
WHY OIG DID THE AUDIT                                  We attribute the ineffective and untimely case
                                                       management to insufficient district office
The OIG conducted the audit to determine if OWCP       supervisory oversight and supervisors not
provided adequate oversight of claimants whose         requiring claims examiners to use the OWCP
reemployment status had not yet been determined.       integrated Federal Employees Compensation
                                                       System (iFECS) Reminder Feature.
READ THE FULL REPORT
                                                       WHAT OIG RECOMMENDED

To view the report, including the scope,               We made two recommendations to the Assistant
methodology, and full agency response, go to:          Secretary for Employment Standards to improve
                                                       case management for FECA claimants in the
http://www.oig.dol.gov/public/reports/oa/              reemployment status not yet determined
2009/04-09-004-04-431.pdf                              category. The Acting Assistant Secretary for
                                                       Employment Standards stated that the agency
                                                       plans to take actions to enhance claims
                                                       examiners’ ability to manage cases in a timely
                                                       manner.
                                                       U. S. Department of Labor – Office of Inspector General 




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective – Did OWCP provide adequate oversight of claimants whose re-
employment status has not yet been determined? .................................................... 3

          Finding 1 – OWCP did not always provide adequate oversight of claimants 

             who were on the periodic roll without their re-employment status 

             having yet been determined. ........................................................................... 3
	

Recommendations ........................................................................................................ 8


Exhibit .......................................................................................................................... 11

          Exhibit FECA Gross Compensation................................................................... 13
	

Appendices.................................................................................................................. 15

          Appendix A Background ..................................................................................... 17
	
          Appendix B Objective, Scope, Methodology and Criteria ................................... 19
	
          Appendix C Acronyms and Abbreviations .......................................................... 23
	
          Appendix D Agency Response ........................................................................... 25
	
          Appendix E Acknowledgements ......................................................................... 27
	




                                                                            OWCP’s Jacksonville and New York Districts
                                                                                        Report No. 04-09-004-04-431
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                        OWCP’s Jacksonville and New York Districts
                                    Report No. 04-09-004-04-431
                                     U. S. Department of Labor – Office of Inspector General 



U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




September 29, 2009

                        Assistant Inspector General’s Report

Shelby Hallmark
Acting Assistant Secretary
 for Employment Standards
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The Office of Inspector General (OIG) conducted a performance audit of the
Employment Standards Administration, Office of Workers’ Compensation Programs
(OWCP) oversight of claimants who are on the periodic roll without their reemployment
status having yet been determined.

The Federal Employees' Compensation Act (FECA) program provides wage loss
compensation and payments for medical treatment to Federal employees who are
injured in the performance of their Federal duties. During fiscal year 2007, OWCP made
nearly $1.8 billion in wage-loss compensation payments to injured Federal employees
(claimants) and processed 19,104 initial wage loss claims. At the end of fiscal year
2007, 51,125 claimants were receiving regular monthly wage-loss compensation
payments from OWCP.

Claims examiners at OWCP’s 12 district offices determine applicants’ eligibility for
FECA benefits and process claims for wage loss payments. When a claimant is
determined eligible for wage-loss compensation, the claimant is placed on the roll.
OWCP refers to claimants who receive automatic monthly payments as being on the
“periodic roll.” Claims examiners are responsible for (1) proactively managing cases on
the periodic roll until the claimant either returns to work, is found to be entitled to
reduced compensation, or it is determined the claimant has no re-employment potential
for an indefinite future and (2) complying with requirements to refer claimants for other
services, such as nursing or vocational rehabilitation services.

Our audit focused on FECA claimants categorized as “re-employment or wage-earning
capacity not yet determined.” In other words, OWCP has not determined whether these
claimants’ disabilities are permanent or whether the claimants can return to work. Based
on OWCP’s definition for this category, we determined this category should be
“temporary” because the claimants are being paid compensation and OWCP has not
determined whether the claimants’ disabilities are permanent.

Our audit objective was to determine if OWCP provided adequate oversight of claimants
whose re-employment status had not yet been determined.

                                                       OWCP’s Jacksonville and New York Districts
                                             1                     Report No. 04-09-004-04-431
                                                 U. S. Department of Labor – Office of Inspector General 




The audit covered current OWCP practices, policies, and procedures in place at the
time of our audit fieldwork. We selected 119 cases, 62 from the Jacksonville District
Office and 57 from the New York City District Office, from 3,716 FECA claimants (See
Exhibit, page 13) who had been on the periodic roll in the re-employment status not yet
determined category for at least 1 year but not more than 3 years as of June 30, 2008.
We reviewed cases to determine if OWCP ensured claims examiners proactively
managed these cases and complied with requirements to refer claimants for other
services. To identify examples of claimants with untimely case management actions, we
searched the periodic roll to identify all claimants in the re-employment status not yet
determined category as of June 30, 2008.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient and appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed
in Appendix B.

Results In Brief

OWCP needs to improve its process for monitoring claimants in the re-employment-
status-not-yet-determined category on the FECA program periodic roll. Specifically, in
13 (11 percent) of the 119 cases reviewed, claims examiners did not perform critical
required activities, such as referring claimants for nursing and vocational rehabilitation
to determine if claimants could return to work in some capacity. We also noted other
indications that cases were not receiving adequate monitoring. For example, in 40 (34
percent) of 119 cases reviewed, claims examiners did not take timely actions for 6
months or longer, such as referrals for second opinions or referee medical examination,
when appropriate, and/or the claims examiner had not acted on examinations that had
already occurred. Furthermore, we noted that as of June 30, 2008, 20,236 of 54,674
claimants (37 percent) were on the periodic roll in the temporary re-employment status-
not-yet-determined category, and 2,860 claimants (14 percent) had been in this
temporary category for 15 years or longer.

In addition, claims examiners did not inform claimants of their reinstatement rights to the
jobs they held when they became injured in 109 of 1151 cases reviewed.

We attribute the ineffective and untimely case management to insufficient district office
supervisory oversight of claims processing and supervisors not requiring claims
examiners to use the OWCP integrated Federal Employees Compensation System
(iFECS) Reminder Feature. The lack of proactive case management increases the risk
claimants will continue receiving full benefits in the temporary, re-employment-not-yet-

1
 We sampled 119 claimants, 62 in Jacksonville and 57 in New York; however, in 4 instances (3 in Jacksonville and 1
in New York), we found it either was not necessary to send a letter or the claimant did not have reinstatement rights.

                                                                    OWCP’s Jacksonville and New York Districts
                                                          2                     Report No. 04-09-004-04-431
                                      U. S. Department of Labor – Office of Inspector General 



determined category when they should have returned to work or their compensation
should have been reduced. Effective and timely case management will better ensure
claimants only receive benefits they are due.

AGENCY RESPONSE

In response to our draft report, the Acting Assistant Secretary for Employment
Standards stated that OWCP’s Division of Federal Employees’ Compensation has
already created periodic roll management units in several district offices and is
developing a report that will track the frequency at which periodic roll cases are
reviewed. The report is intended to alert and prompt claims examiners to take
necessary actions on periodic roll cases. In cases where no action has been taken
within a specified period of time, a reminder in the iFECS will be sent to the claims
examiner, prompting the examiner to take action. The Acting Assistant Secretary stated
that the report and the new reminders will greatly enhance the claims examiners’ ability
to manage periodic roll cases in a timely manner.

The agency’s response is included in its entirety as Appendix D.

OIG CONCLUSION

The actions taken and planned by the Division of Federal Employees’ Compensation
should help improve the timeliness of actions needed to proactively manage cases in
the re-employment-not-yet-determined category.


RESULTS AND FINDINGS

Objective – Did OWCP provide adequate oversight of claimants whose re-
            employment status has not yet been determined?

Finding 1 – OWCP did not always provide adequate oversight of claimants who
            were on the periodic roll without their re-employment status having
            yet been determined.

OWCP needs to improve its process for monitoring claimants on the FECA program
periodic roll in the category of re-employment status has not yet been determined.
Specifically, in 13 (11 percent) of the 119 cases reviewed, Jacksonville and New York
claims examiners did not perform critical required activities such as referring claimants
for nursing and vocational rehabilitation services to determine if claimants could return
to work in some capacity. We also noted other indications that OWCP was not
performing adequate monitoring in 54 (45 percent) of the 119 cases reviewed.
Specifically, claims examiners did not take necessary actions, such as referrals for
second opinions or referee medical examinations and/or did not act on examinations
that had already occurred. Of these 54 cases, 40 (74 percent) claimants were not
provided a significant intervention action for 6 months or longer.


                                                     OWCP’s Jacksonville and New York Districts
                                             3                   Report No. 04-09-004-04-431
                                                   U. S. Department of Labor – Office of Inspector General 




Furthermore, we noted 20,2362 (or 37 percent) of 54,674 claimants as of June 30, 2008,
were on the periodic roll and their re-employment status had not yet been determined,
including 2,860 claimants (14 percent) who had been on the periodic roll for 15 years or
longer. We also noted the Jacksonville and New York OWCP districts had a combined
total of 7,536 of the 20,236 claimants whose re-employment status had not yet been
determined. Of the 7,536 claimants, Jacksonville managed 4,825 claimants, of which
3,205 (66 percent) were in this status for more than 3 years. As of June 30, 2008, these
3,205 claimants had averaged more than 11 years in this status and had been paid
gross compensation of nearly $111 million for the year ended June 30, 2008.
Furthermore, the New York District managed 2,711 claimants, of which 1,544 (57
percent) were in this undetermined re-employment status for more than 3 years, and
averaged more than 8 years, and had been paid gross compensation of nearly $53
million.

We attribute the ineffective and untimely case management to insufficient district office
supervisory oversight of claims processing and supervisors not requiring claims
examiners to use the OWCP iFECS Reminder Feature.3

The absence of adequate management oversight to ensure timely and effective case
management and the failure to refer claimants to appropriate services, such as nursing
or vocational rehabilitation, increases the risk that claimants will remain in the
re-employment-not-yet-determined category and will receive unallowable compensation.
Effective case management can provide opportunities to remove claimants from this
category and into another periodic roll category that may reduce the amount of
compensation paid or result in the removal of the claimant from the periodic roll and to
re-employment.

Claimants Not Always Referred for Services

The Division of Federal Employees’ Compensation (DFEC) Procedure Manual4
(Procedure Manual) directs that cases should be referred to OWCP nurse services if
they have been accepted within 90 days of submission. The Procedure Manual5 also
directs that cases should be referred for vocational rehabilitation services once the
claimant has stable, well-defined work limitations that allow him or her to work eight
hours per day. A limited placement can be made for placement services with the prior
employer if the claimant can work four hours per day and the employer may be able to
offer a modified job. However, claims examiners did not perform critically required
activities to include referring claimants for nursing or vocational rehabilitation services.
Specifically, claims examiners failed to refer 13 (11 percent) of 119 claimants tested for
OWCP’s nurse services and/or vocational rehabilitation services when such referrals
would likely have benefited the claimants. The timely use of these services would have

  See Exhibit 1. 

2

  The Reminder Feature allows claims examiners to set up reminders of needed case actions at regular intervals. 

3
4
  Procedure Manual Chapter 2-806-8.b, entitled “Nurse and Vocational Rehabilitation Services”, effective 2005. 

5
  Procedure Manual Chapter 2-0813-5.c, entitled “The case will be referred to the Rehabilitation Specialist”, effective 

2005. 


                                                                      OWCP’s Jacksonville and New York Districts
                                                            4                     Report No. 04-09-004-04-431
                                                    U. S. Department of Labor – Office of Inspector General 



better ensured claimants received necessary medical treatment and assistance in
returning to work.

For example, a Jacksonville claimant suffered an injury in March 2006 and began to
receive wage-loss compensation beginning in July 2006. The claimant was not referred
to a nurse to help manage the claimant’s disability as required. The case was not
referred for a second opinion until November 2006, 7 months after the injury occurred.
Similarly, in New York, a claimant suffered a head injury in May 2006 and began
receiving compensation in July 2006. The claimant was not referred for nurse services
and the case was not referred for a second opinion examination until April 2007, 10
months after the injury occurred. The second opinion report indicated the claimant was
ready to return to gainful employment; however, the claims examiner did not refer the
claimant for needed vocational rehabilitation services.

Timely Actions Not Always Taken

Cases were not receiving adequate monitoring in the Jacksonville and New York District
Offices. Specifically, interventions directed toward removing cases from the periodic roll
were not always taken. In both offices, claims examiners did not take timely actions,
such as referrals for second opinions or referee medical examinations when
appropriate, and/or without acting on examinations that had already occurred in 546 (45
percent) of 119 cases tested, often allowing cases to go long periods of time without a
significant intervention action directed toward removing the claimants from the periodic
roll. In 407 (74 percent) of the 54 cases (or 34 percent of the 119 cases), claims
examiners allowed the cases to go without significant intervention actions for 6 months
or longer. The chart below shows the length of time the 54 cases were not provided with
a significant intervention action.




6
    Jacksonville had 35 cases and New York had 19 [35 + 19] for a total of 54.
7
    Jacksonville had 29 cases and New York had 11 [29 + 11] for a total of 40.

                                                                      OWCP’s Jacksonville and New York Districts
                                                            5                     Report No. 04-09-004-04-431
                                                      U. S. Department of Labor – Office of Inspector General 




                            Length of Time Cases Were Not Provided With

                                   Significant Intervention Actions


                                                          10                     10
                          10
                                                                      9


                           8
                                                  7


                           6
             Number of                                         5
               Cases
                                              4                           4
                           4                                                                    Jacksonville
                                                                                                New York
                                  2                                                   2
                           2
                                      1


                           0
                                 1 to 2      3 to 5       6 to 8    9 to 12   Longer than
                                                                                1 year

                                                  Number of Months



Jacksonville and New York claims examiners did not actively manage the 54 cases as
required by the Procedure Manual. The Procedure Manual8 requires that claims
examiners actively manage the case until the claimant returns to work, a loss-of-wage-
earning-capacity decision is issued, or a finding of no-wage capacity is made. However,
claims examiners did not actively manage 35 (56 percent) of the 62 tested cases in
Jacksonville. Those 35 claimants received approximately $1.3 million in gross
compensation for the year ended June 30, 2008, or an average of nearly $37,000 per
claimant. Of this number, 29 (83 percent) were not actively managed for a period of 6
months or longer.

In New York, claims examiners did not actively manage 19 (33 percent) of 57 tested
cases. Those 19 claimants received approximately $700,000 in gross compensation for
the year ended June 30, 2008, or an average of nearly $37,000 per claimant. Of this
number, 11 (58 percent) were not actively managed for a period of 6 months or longer.

In addition to the Procedure Manual’s requirement to actively manage cases, claims
examiners’ performance standards at both the Jacksonville and New York District
Offices require the claims examiners to either actively or proactively manage cases,
taking action every 30 days or as appropriate to facilitate a return to work or resolution
of the case. Our audit found that claims examiners in Jacksonville and New York did not
timely perform one or more of the following intervention actions:

8
    Procedure Manual Chapter 2-0600-3.e, entitled “Bring the Case to Resolution,” effective 2005.

                                                                     OWCP’s Jacksonville and New York Districts
                                                               6                 Report No. 04-09-004-04-431
                                      U. S. Department of Labor – Office of Inspector General 




   Refer claimants for a second opinion or referee medical examination
   Follow up on a second opinion or referee medical examination
   Refer claimants for nurse services or for vocational rehabilitation services
   Refer claimants for, or follow up on, functional capacity evaluations
   Prepare formal loss of wage-earning capacity decisions
   Follow up on job offer from the prior employer

For example, a Jacksonville field nurse filed a report with the claims examiner indicating
that the claimant might be ready to return to work in some limited-duty capacity, but the
employing agency would need written work limitations. The claims examiner did not act
on the report and the case remained inactive until the claimant was referred for a
second opinion examination almost 2 years later (21 months). Jacksonville officials did
not provide specific reasons as to why this occurred, but indicated that Jacksonville
claims examiners are assigned heavy case loads and manage cases that may require a
lot of time.

In New York, a claimant refused a job offer from his prior employer, but the claims
examiner waited 4 months before referring the claimant for a second opinion
examination to assess the legitimacy of the claimant’s job refusal. The second opinion
report indicated the claimant could be retrained for another suitable occupation.

The Jacksonville and New York District Directors told us claims examiners are
encouraged to use the iFECS Reminder Feature to set up 30-day call for actions such
as following up on second opinion examinations; however, use of the Reminder Feature
is not required. In addition, a Jacksonville claims examiner told us that referrals and
monitoring of claimant services is done through use of the iFECS Reminder Feature,
and that feature can be set to alert the claims examiner at intervals such as 30, 60, 90,
or 120 days, or up to 10 months.

The lack of active case management and failure to follow established procedures
occurred because there was (1) insufficient management oversight and (2) no
requirement to use the iFECS Reminder Feature. In contrast, more robust case
management and the full use of available resources and tools like the iFECS Reminder
Feature would get claimants back to work faster, which would save dollars by reducing
compensation payments.

In response to our draft report, the Acting Assistant Secretary for Employment
Standards stated that OWCP’s Division of Federal Employees’ Compensation has
already created periodic roll management units in several district offices. He also stated
that the agency believes it can address the need to improve management of cases in
the employment-not-yet-determined category by developing a report that tracks the
frequency at which these cases are reviewed. The report will prompt claims examiners
to take the next necessary action. Additionally, new iFECS reminders will prompt the
claims examiners to take action in cases where no action has taken place within a
specified period of time.

                                                     OWCP’s Jacksonville and New York Districts
                                             7                   Report No. 04-09-004-04-431
                                                  U. S. Department of Labor – Office of Inspector General 




Finding 2 – OWCP did not always inform claimants of their reinstatement rights.

Jacksonville and New York claims examiners did not always inform claimants whose re-
employment status had not yet been determined, of their reinstatement rights to the jobs
held when they became injured. Specifically, the claims examiners failed to mail the 10-
month letter, as required by the Procedure Manual, to 109 (95 percent) of 1159
claimants’ cases we tested. The Procedure Manual10 discusses the claimants
entitlement to the job held at the date of injury for one year after wage loss began, and
requires the claims examiner advise the claimant in writing of those rights. However,
Jacksonville claims examiners failed to mail letters to 53 (90 percent) of 59 claimants,
and New York claims examiners failed to mail all 56 letters. Each claimant had been on
the periodic roll for at least one year prior to our review, and consequently, the letter
should have been mailed.

The Jacksonville and New York Districts claims examiners’ failure to mail the letters was
due to a lack of adequate training. Also, management did not ensure the letters had
been sent as part of their routine supervisory oversight of cases. As a result, claimants
may not have been aware of their reinstatement rights before those rights expired.
However, subsequent to our having raised this issue with the Jacksonville and New
York District Directors, they informed us that they had provided training11 to their staffs
on the 10-month letter and will perform periodic reviews to ensure that letters have been
mailed. Consequently we are not making a recommendation regarding the 10-month
letter.

Recommendations

We recommend that the Assistant Secretary for the Employment Standards
Administrations (ESA) direct the Director of the Office of Workers’ Compensation
Programs (OWCP) to require the Jacksonville and New York District Directors to:

1. Create a specialized workgroup to (a) identify cases in the re-employment-status-
   not-yet-determined category that need immediate case management; (b) determine
   the intervention(s) that may be needed for those identified cases; and (c) execute
   actions, as needed, to reduce compensation payments and/or remove claimants
   from this periodic roll category.

2. Implement 	 a requirement that claims examiners use the integrated Federal
    Employees’ Compensation System (iFECS) Reminder Feature to alert them when to
    (a) consider or reconsider referring claimants to a second opinion specialist, (b)
    follow up on referrals to nurse or vocational rehabilitation services, (c) follow up on
    pending medical reports, and (d) mail 10-month letters.
9
  We sampled 119 claimants, 62 in Jacksonville and 57 in New York; however, in 4 instances (3 in Jacksonville and 1 

in New York), we found it either was not necessary to send a letter or the claimant did not have reinstatement rights. 

10
   Procedure Manual Chapter 2-0600-9, entitled “Ten-Month Letter”, effective 2005. 

11
   The Jacksonville District provided training on February 11, 2009, and New York District provided training on 

February 12, 2009. Both districts plan to provide regular training on the 10-month Letter in the future. 


                                                                     OWCP’s Jacksonville and New York Districts
                                                           8                     Report No. 04-09-004-04-431
                                     U. S. Department of Labor – Office of Inspector General 




We appreciate the cooperation and courtesies extended to us by OWCP personnel
during the audit. OIG personnel who made major contributions to this report are listed in
Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                    OWCP’s Jacksonville and New York Districts
                                            9                   Report No. 04-09-004-04-431
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                        OWCP’s Jacksonville and New York Districts
               10                   Report No. 04-09-004-04-431
            U. S. Department of Labor – Office of Inspector General 





Exhibit 





                           OWCP’s Jacksonville and New York Districts
                  11                   Report No. 04-09-004-04-431
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                        OWCP’s Jacksonville and New York Districts
               12                   Report No. 04-09-004-04-431
                                                    U. S. Department of Labor – Office of Inspector General 



                                                                                                    Exhibit
                           FECA Gross Compensation 

     Claimants Whose Current Status is Re-employment Status Not Yet Determined 

                             Year Ended June 30, 2008 


District                    Total                 Gross        Claimants Classified    Gross
Office                    Claimants            Compensation     as Re-employment    Compensation
                                                                  Status Not Yet
                                                                Determined For At
                                                               Least 1 Year But Not
                                                                More Than 3 Years
Jacksonville                      4,825         $156,419,166                    794   $29,215,189
San
Francisco                         3,021      94,771,494                             648         22,381,683
New York                          2,711      83,113,616                             514         18,204,148
Dallas                            2,399      65,447,445                             496         16,938,927
Washington                        1,911      63,137,248                             266         10,008,837
Boston 1,270                                 36,786,765 217                                      7,237,711
Cleveland                         1,198      35,507,524                             181          6,377,300
Philadelphia                      1,102 34,167,880                                  234          8,504,663
Chicago                             704      20,360,664                             113          4,255,284
Seattle                             616      18,720,428                             126          4,790,955
Denver                              332        9,801,766                             90          3,159,740
Kansas City                         117        3,765,221                             30          1,174,815
National
       a
Office                                 30 1,054,380                                    7           330,796

Totals                          20,236          $623,053,597                      3,716      $132,580,048
a
    National Office is not a district office




                                                                   OWCP’s Jacksonville and New York Districts
                                                          13                   Report No. 04-09-004-04-431
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                        OWCP’s Jacksonville and New York Districts
               14                   Report No. 04-09-004-04-431
               U. S. Department of Labor – Office of Inspector General 





Appendices 





                              OWCP’s Jacksonville and New York Districts
                     15                   Report No. 04-09-004-04-431
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                        OWCP’s Jacksonville and New York Districts
               16                   Report No. 04-09-004-04-431
                                     U. S. Department of Labor – Office of Inspector General 



                                                                               Appendix A
Background

OWCP had its origins in an organization established in 1916 to administer claims under
FECA. The FECA program provides workers’ compensation coverage to about three
million Federal and Postal workers, including wage replacement and medical and
vocational rehabilitation benefits for work-related injury and occupational disease.

Within OWCP, DFEC is charged with the responsibility of managing the FECA program.
DFEC operations are performed nationwide in 6 regions and 12 district offices and
those operations include adjudicating new claims; ongoing case management; payment
of medical expenses; compensation benefits to injured workers and survivors; and
assisting injured employees’ return to work when they are medically able to do so.
During fiscal year 2007, OWCP made nearly $1.8 billion in wage-loss compensation
payments to injured Federal employees and processed 19,104 initial wage-loss claims.
At the end of fiscal year 2007, 51,125 claimants were receiving regular monthly wage-
loss compensation payments from OWCP.

The Periodic Roll

Once a claimant is determined eligible for wage-loss compensation, the claimant is
placed on the roll. Claimants who have clearly-defined and well-established, long-term
disabilities that are identified early in their workers’ compensation cases should be
placed on the periodic roll. Payments made on the periodic roll provide an efficient
method of ensuring that regular monthly payments are given to injured workers. The
claims examiner retains responsibility for case management, which is intended as a
comprehensive approach used to ensure case evidence remains current, all suitable
medical care is provided to perhaps minimize the length of disability, and that
appropriate use is made of nursing and rehabilitation services. The claims examiner
must actively manage the case until the claimant returns to work, was found to be
entitled to reduced compensation, or was found to have no re-employment potential for
an indefinite future.

Nursing and Vocational Rehabilitation Services

In situations where a case has been accepted within 90 days of its submission, the
claims examiner should refer it for OWCP nurse services to assist in medical
management and return to work. In situations where the case has not been accepted
within 90 days, the claims examiner should consider referral to nurse services if such
services would likely be beneficial. Once accepted for nurse services, the OWCP staff
nurse selects and manages the field nurse. A field nurse is typically a contract nurse
whose engagement involves working closely with OWCP office staff, claimants,
physicians in the community, and employing agencies to assist in the return to work
effort.




                                                    OWCP’s Jacksonville and New York Districts
                                           17                   Report No. 04-09-004-04-431
                                     U. S. Department of Labor – Office of Inspector General 



A claimant should be referred for vocational rehabilitation services once he or she has
stable, well-defined work limitations, which allow for an eight-hour work day. A limited
referral may be made for placement services with the previous employer if the claimant
can work at least four hours per day and the previous employer may be able to offer a
modified job. If placement-with-previous-employer services do not succeed in returning
the claimant to work, the claimant is moved to the plan development phase of vocational
rehabilitation. Development of the plan usually involves assessing the claimant’s
interests and abilities, and testing and assessing the labor market. The plan is
developed toward placement with a new employer, training, or placement with short-
term assisted re-employment.

Subsequent to plan development and any training, the claimant may receive placement-
with-new-employer services. These services may last 90 days, with additional 90-day
extensions being granted for claimants making a good effort to obtain a job. If the
placement efforts are successful, the claimant is monitored for an additional 60 days
before a formal decision is made regarding the claimant’s wage-earning capacity. If the
placement efforts fail and the job titles and expected wages identified during plan
development are found to be viable, the claims examiner is to prepare a pre-termination
or pre-reduction notice addressing the claimant’s wage-earning capacity based on the
targeted employment. If no rehabilitation plan can be developed or there are no suitable
jobs in the claimant’s commuting area, the claims examiner should consider assigning
the case to the determined-to-have-no-wage-earning capacity or re-employment-
potential category.

Second Opinion and Referee Examinations

The claimant’s attending physician is the primary source of medical evidence in most
cases; however, in certain circumstances, the use of a second opinion examination may
be appropriate. Typically, the claims examiner initiates the use of second opinion
examinations; however, the assigned registered nurse may also recommend a second
opinion examination, and the claims examiner should act promptly on such a
recommendation. Second opinion examinations are required in certain categories of
cases where the claimant remains disabled for six months after the disability from work
begins. The use of second opinions is advisable when there is a need for a rationalized
opinion regarding causal relationship, the need for surgery, the length of disability, or
seemingly inappropriate or prolonged medical treatment.

Referee examinations may be used to resolve a conflict of medical opinion. The use of
a referee physician is only appropriate in cases where there is a disagreement between
the opinions of an attending physician and a second opinion specialist or a district
medical advisor.




                                                    OWCP’s Jacksonville and New York Districts
                                           18                   Report No. 04-09-004-04-431
                                                     U. S. Department of Labor – Office of Inspector General 



                                                                                                        Appendix B
Objective, Scope, Methodology and Criteria

Objective

Did OWCP provide adequate oversight of claimants whose re-employment status has
not yet been determined?

Scope

The audit scope was a performance audit of FECA claimants whose current status was
coded as “on the periodic roll; re-employment or earning capacity has not yet been
determined”12 as of June 30, 2008, and whose current status date was between July 1,
2005, and June 30, 2007. Based on the definition of this category, we concluded that
OWCP has not yet determined whether these claimants’ disabilities are permanent or
whether the claimant is ready to return to work. By this definition, we determined that
the category should be “temporary” because the claimants are being paid compensation
but OWCP has not yet determined whether the claimed disability is permanent. The
scope of the associated FECA compensation payments was for the year ended June
30, 2008. The audit focus was on OWCP’s management oversight of claims examiners
and whether claims examiners consistently managed claimants whose re-employment
status has not yet been determined. Our field work was conducted at the following
OWCP district offices:

                                          Jacksonville District Office 

                                        400 West Bay Street, Room 826 

                                          Jacksonville, Florida 32202 


                                             New York District Office 

                                           201 Varick Street, Room 740 

                                            New York, New York 10014 


In planning and performing our audit, we considered OWCP’s internal controls by
obtaining an understanding of the program’s internal controls, determining whether
internal controls had been placed in operation, and assessing control risk in order to
determine our procedures for achieving our objective. Specifically, we looked at
preventive controls that were designed to ensure sufficient case management of
claimants whose re-employment status has not yet been determined, and proper
referrals for nurse and vocational rehabilitation services.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient and appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence

12
     For the purposes of this report, we refer to this category as “re-employment status not yet determined.”

                                                                       OWCP’s Jacksonville and New York Districts
                                                             19                    Report No. 04-09-004-04-431
                                     U. S. Department of Labor – Office of Inspector General 



obtained provided a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

We evaluated OWCP internal controls pertaining to the oversight and management of
claimants whose re-employment status had not yet been determined, and assessed the
reliability of FECA claimant data maintained in iFECS. We reviewed OWCP policies and
procedures; reviewed reports on iFECS controls; conducted tests to assess the
accuracy of iFECS data; and reviewed internal monitoring reports. We interviewed
OWCP officials at the Jacksonville and New York District Offices. We reviewed
applicable laws and regulations for compliance requirements at the National and district
office level. We reviewed the Division of Federal Employees’ Compensation Procedure
Manual and identified sections that were relevant to our audit objective.

OWCP provided us with the FECA National Case Management File and the Automated
Compensation Payment System data files for the year ended June 30, 2008. We used
the National Case Management File to establish the universe of claimants who were on
the periodic roll with a current status of re-employment-status-not-yet-determined as of
June 30, 2008, and whose current status date was between July 1, 2005, and June 30,
2007. The National Case Management File and the Automated Compensation Payment
System data files are extractions from the iFECS.

We used Audit Command Language software to search the National Case Management
file and identify 54,674 cases on the periodic roll, as of June 30, 2008. Of the total
periodic roll cases, we found 20,236 included the current status of re-employment-
status-not-yet-determined, and 3,716 of the 20,236 were within our scope (current
status code date between July 1, 2005, and June 30, 2007).




                                                    OWCP’s Jacksonville and New York Districts
                                           20                   Report No. 04-09-004-04-431
                                        U. S. Department of Labor – Office of Inspector General 



                                                Number of Cases in
                      District Office
                                                   our Scope
                      Jacksonville                                  794
                      San Francisco                                 648
                      New York                                      514
                      Dallas 496
                      Washington 266
                      Philadelphia 234
                      Boston 217
                      Cleveland 181
                      Seattle 126
                      Chicago 113
                      Denver 90
                      Kansas City                                    30
                                      a
                      National Office                                 7
                        Total                                     3,716

Fieldwork was conducted at the OWCP National Office and at two district offices
(Jacksonville and New York). The Jacksonville and New York district offices were
selected because our preliminary assessment indicated these two offices may not be
effectively moving claimants from the re-employment-status-not-yet-determined
category on the periodic roll.

We selected Jacksonville because it both manages the highest number of cases
meeting our criteria with 794 cases (or 21 percent of the total cases meeting our criteria)
and the percentage of cases in the re-employment-not-yet-determined category were
tied with New York at the second highest at 69 percent. We selected New York because
it both manages the third highest number of cases meeting our criteria with 514 cases
(or 14 percent of the total cases meeting our criteria) and percentage of cases in the
re-employment-not-yet-determined category were tied with Jacksonville at the second
highest at 69 percent.

To test whether OWCP officials provided adequate oversight at Jacksonville and New
York, we tested 119 cases (62 in Jacksonville and 57 in New York) within our scope,
and assessed whether the claims examiner provided timely case management actions
and complied with relevant requirements; such as, referring claimants to nurse or
vocational rehabilitation services, mailed the required 10-months letter, or ensured that
annual medical and requests for earnings reports were received.

Our sample design included one strata based on the current status type of re-
employment-status-not-yet-determined as of June 30, 2008, and a current status date
between July 1, 2005, and June 30, 2007. We selected samples from the universes of
794 and 514 cases meeting our scope in Jacksonville and New York respectively. We
used the Audit Command Language random sampling tool to select 124 cases from

                                                       OWCP’s Jacksonville and New York Districts
                                              21                   Report No. 04-09-004-04-431
                                      U. S. Department of Labor – Office of Inspector General 



Jacksonville and 114 from New York. Due to time and resource considerations, we only
tested half of the samples from each location; therefore, we did not project the results of
our tests.

Criteria

We used the following criteria to perform this audit:

   Federal Employees Compensation Act (FECA)

   20 Code of Federal Regulations (CFR):

       o	 Part 1 - Performance of functions

       o	 Part 10 - Claims for compensation under the Federal Employees’
          Compensation Act, as amended

       o	 Part 25 - Compensation for disability and death of non-citizen Federal
          employees outside of the United States

	 The Division of Federal Employees’ Compensation Procedure Manual:

       o	 Part 2 - Claims

       o	 Part 3 - Medical




                                                     OWCP’s Jacksonville and New York Districts
                                            22                   Report No. 04-09-004-04-431
                                U. S. Department of Labor – Office of Inspector General 



                                                                          Appendix C
Acronyms and Abbreviations

CFR             Code of Federal Regulations

ESA             Employment Standards Administration

DFEC            Division of Federal Employees’ Compensation

FECA            Federal Employees’ Compensation Act

iFECS           integrated Federal Employees’ Compensation System

OIG             Office of Inspector General

OWCP            Office of Workers’ Compensation Programs




                                               OWCP’s Jacksonville and New York Districts
                                      23                   Report No. 04-09-004-04-431
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                        OWCP’s Jacksonville and New York Districts
               24                   Report No. 04-09-004-04-431
                  U. S. Department of Labor – Office of Inspector General 



                                                            Appendix D

Agency Response




                                 OWCP’s Jacksonville and New York Districts
                        25                   Report No. 04-09-004-04-431
U. S. Department of Labor – Office of Inspector General 





               OWCP’s Jacksonville and New York Districts
      26                   Report No. 04-09-004-04-431
                                   U. S. Department of Labor – Office of Inspector General 



                                                                              Appendix E
Acknowledgements

Key contributors to this report were Paula Denman (Audit Director), Mark Sanderson
and Travis Williams.




                                                  OWCP’s Jacksonville and New York Districts
                                         27                   Report No. 04-09-004-04-431
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online: http://www.oig.dol.gov/            hotlineform.htm
Email: hotline@              oig.dol.gov

Telephone:          1-800-347-3756
                    202-693-6999

Fax: 	              202-693-7020

Address:            Office of Inspector General
                    U.S. Department of Labor
                    200 Constitution Avenue, N.W.
                    Room 	S-5506 

                    Washington, D.C. 20210 

